             [identical letter sent to Chairman/Ranking Member
                    of Senate Committee on the Judiciary]




January 5, 2004

The Honorable F. James Sensenbrenner, Jr.
Chairman, Committee on the Judiciary
U.S. House of Representatives
Washington, DC 20515

The Honorable John Conyers, Jr.
Ranking Minority Member
Committee on the Judiciary
U.S. House of Representatives
Washington, DC 20515

Dear Mr. Chairman and Congressman Conyers:

Enclosed is a follow-up analysis of the actions taken by the Department of
Justice (DOJ) in response to the recommendations contained in the June 2003
Office of the Inspector General (OIG) report entitled, “The September 11
Detainees: A Review of the Treatment of Aliens Held on Immigration Charges
in Connection with the Investigation of the September 11 Attacks” (Detainee
Report).

On September 5, 2003, we analyzed the responses from the DOJ and the
Department of Homeland Security (DHS) to each of the 21 recommendations
we made in the report. In that analysis, we stated that both agencies were
taking our recommendations seriously and were taking steps to address many
of the concerns raised by the OIG report. However, we concluded that a
number of the recommendations were not addressed with sufficient specificity,
and we asked for a follow-up response to provide additional information on
actions taken to respond to the recommendations.

On November 20, 2003, the DOJ submitted to the OIG a second response to
the recommendations that related to DOJ responsibilities. The enclosed
document analyzes this second DOJ response. Based on our analysis of the
DOJ’s second response, we concluded that the DOJ has taken significant and
responsible steps to implement the OIG’s recommendations from the Detainee
Report. With regard to the recommendations that are related to DHS
responsibilities, the DHS OIG now is responsible for monitoring the DHS’s
implementation of those recommendations.
Please let us know if you have any questions about these issues.

Sincerely,




Glenn A. Fine
                                    Inspector General

Enclosure

cc: Members, Committee on the Judiciary
    U.S. House of Representatives
                                           Table of Contents
Introduction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
Recommendation 1. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
Recommendation 2. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9
Recommendation 4. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12
Recommendation 5. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16
Recommendation 6. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .20
Recommendation 9. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22
Recommendation 10. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .24
Recommendation 11. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .26
Recommendation 12. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .28
Recommendation 13. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29
Recommendation 14. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .31
Recommendation 15. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .33
Recommendation 16. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .35
Recommendation 17. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .38
Recommendation 20. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .40
     Analysis of the Second Response by the Department of Justice to
        Recommendations in the Office of the Inspector General’s
      June 2003 Report on the Treatment of September 11 Detainees

Introduction

       In the following analysis, the Office of the Inspector General (OIG)
evaluates the Department of Justice’s (DOJ) second response to the
recommendations contained in the OIG’s report entitled “The September 11
Detainees: A Review of the Treatment of Aliens Held on Immigration Charges
in Connection with the Investigation of the September 11 Attacks” (Detainee
Report). The OIG report, issued on June 2, 2003, examined various issues
related to the treatment of the 762 aliens detained on immigration charges and
held in connection with the investigation of the September 11 attacks. In our
report, we made 21 recommendations related to issues under the jurisdiction
of the Federal Bureau of Investigation (FBI), the Federal Bureau of Prisons
(BOP), leadership offices at the DOJ, as well as immigration issues now under
the jurisdiction of the Department of Homeland Security (DHS).

      On July 21, 2003, the DOJ submitted its first response to the
recommendations related to the DOJ and its components, and on August 4,
2003, the DHS submitted its first response to the recommendations related to
the DHS.

      On September 5, 2003, the DOJ OIG issued a report analyzing the
responses of both the DOJ and the DHS. The OIG’s analysis concluded that
both agencies appeared to be taking the recommendations seriously and were
taking steps to address many of the concerns raised by the report. The OIG’s
analysis also concluded, however, that a number of the recommendations were
not addressed with sufficient specificity and significant work remained before
the recommendations were fully implemented. For several of the
recommendations, we also asked for more information regarding the DOJ’s
proposed action to address the recommendations.

      On November 20, 2003, the DOJ submitted to the OIG a second
response to the recommendations that related to issues still under the DOJ’s
jurisdiction (“the second response”). See Appendix A. The DOJ’s second
response provided additional information and an update on the steps that the
DOJ and its components were taking to implement the OIG’s
recommendations. The second response also included three attachments from
the BOP describing policies that the BOP adopted to address the OIG’s
recommendations.



Office of the Inspector General, U.S. Department of Justice            1
      The OIG has carefully analyzed the DOJ’s second response and, as
discussed below, we have concluded that the DOJ has taken significant and
responsible steps to implement the OIG’s recommendations.

      As we noted in our September 5 analysis of the DOJ and DHS first
responses, because immigration enforcement responsibilities have been
transferred from the DOJ to the DHS, the DHS OIG is now responsible for
monitoring the DHS’s implementation of the recommendations contained in the
report relating to immigration issues (recommendations 3, 4, 7, 8, 18, 19, and
21). Therefore, we discuss in this report only those recommendations related
to current DOJ responsibilities. We received a copy of the DHS’s second
response to our recommendations, dated November 21, 2003, and for
informational purposes we attach that response as Appendix B.

      In the following sections, the OIG analyzes the DOJ’s second response to
each of the recommendations related to the DOJ. For each recommendation,
we reproduce below:

      1)   the   OIG’s original recommendation;
      2)   the   DOJ’s first response;
      3)   the   OIG’s analysis of the first response;
      4)   the   DOJ’s second response; and
      5)   the   OIG’s analysis of the second response.

Consistent with our normal practice, when specific action has been taken on a
recommendation to fully address the issues raised by the recommendation, we
consider the recommendation closed.

      We recognize that the effectiveness of the DOJ’s response to these
recommendations depends on how the new policies and practices are actually
implemented, particularly if another terrorist attack occurs. But as we discuss
below, we believe that the DOJ’s second response addresses the concerns
underlying the OIG’s recommendations in the Detainee Report in a responsible
and responsive manner.




Office of the Inspector General, U.S. Department of Justice             2
Recommendation 1
Status: Closed

OIG Recommendation

      We believe the Department and the FBI should develop clearer and more
objective criteria to guide its classification decisions in future cases involving
mass arrests of illegal aliens in connection with terrorism investigations. For
example, the FBI could develop generic screening protocols (possibly in a
checklist format) to help agents make more consistent and uniform
assessments of an illegal alien’s potential connections to terrorism. These
protocols might require some level of evidence linking the alien to the crime or
issues in question, and might include an FBI database search or a search of
other intelligence and law enforcement databases.

       In addition, the FBI should consider adopting a tiered approach to
detainee background investigations that acknowledges the differing levels of
inquiry that may be appropriate to clear different detainees of connections to
terrorism. For example, a more streamlined inquiry might be appropriate when
the FBI has no information that a detainee has ties to terrorism, while a more
comprehensive background investigation would be appropriate in other cases.

DOJ First Response

       In September 2002, the Department imposed a requirement that the
Office of the Deputy Attorney General approve the addition of all new cases to
the September 11 special interest detainee list. The addition of new names to
the list had to be based in part on the FBI’s representation that the case was
clearly linked to the September 11 investigation. As the report indicates, there
are very few aliens who remain detained who were encountered during the
course of the September 11 criminal investigation.

       With regard to future investigations, we agree with the basic premise of
the recommendation and will ensure that the FBI works with the Department
of Homeland Security (DHS) to establish criteria for such investigations (the
specific criteria will depend on the nature of the national emergency). We
would note that investigating an individual for ties to terrorism is not as simple
as conducting database checks. There are many other steps that are taken,
depending on the type of investigation being conducted. Even if the FBI
possessed no specific information that a specific alien had ties to terrorism, if
we were to experience another large-scale terrorist attack on U.S. soil, it is
likely that the FBI would want to check with other agencies, both in the U.S.
and abroad, before making a final determination that an alien arrested in


Office of the Inspector General, U.S. Department of Justice                3
connection with the investigation of such an attack in fact had no ties to
terrorism.

OIG First Analysis

       In our report, we found that the decision to detain and classify aliens as
persons "of interest" to the PENTTBOM investigation often was indiscriminate
and haphazard. Therefore, we recommended that the DOJ develop clear and
objective criteria to guide its classification decisions in future cases involving
mass arrests of illegal aliens in connection with terrorism investigations.
According to the DOJ’s response, its new policy requires that individuals added
to the special interest detainee list must be approved by the Deputy Attorney
General’s office and be clearly linked to terrorism.

      While this new procedure will address the lack of uniformity with regard
to special interest detainees arrested in connection with the September 11
investigation, we are concerned that this procedure may not be adequate in the
future. The objective of the recommendation was to encourage development of a
protocol or procedures to enable the DOJ to react effectively and consistently in
the event of a future crisis. We also question whether staff from the Deputy
Attorney General’s Office can effectively play such a "gatekeeper" role with
respect to deciding whether a large number of detainees are placed on a special
interest list, given their numerous other pressing duties and the large number
of decisions that might have to be made on cases throughout the nation.

       In addition, the OIG report recognized that investigating a detainee for
possible ties to terrorism involves much more than database checks,
particularly for those aliens who the FBI actually suspected of having ties to
terrorism. However, the report detailed the degree to which the FBI was unable
to complete clearance investigations – including checks with other agencies –
within the quick time frames that senior DOJ officials thought it could. For
example, the FBI did not have the procedures in place or apply the resources
needed to analyze large amounts of name check and database information it
received from the Central Intelligence Agency (CIA). As detailed in the OIG
report, this CIA information sat unreviewed for weeks at FBI Headquarters. As
a result of these and other problems encountered in the aftermath of the
September 11 attacks, the OIG recommended that the FBI adopt a tiered
approach to detainee background investigations that acknowledges the
differing levels of inquiry that may be appropriate to clear detainees of
connections to terrorism.




U.S. Department of Justice, Office of the Inspector General               4
       The DOJ response does not address these issues directly, including how
to more effectively classify detainees at the outset of an investigation, how to
prioritize clearance investigations, and how to better allocate FBI resources to
conduct such investigations. While we agree with the statement in the DOJ
response that the specific investigative criteria to be used during an emergency
will depend, to some extent, on the nature of the emergency, we continue to
believe that the FBI should develop general criteria and guidance to assist its
field offices in making more consistent and uniform assessments of an illegal
alien’s potential connections to terrorism. We also believe the DOJ should not
wait until another national emergency to create such criteria.

      To close this recommendation, we request that the DOJ provide by
October 3, 2003, additional information about the FBI’s efforts to work “with
the [DHS] to establish criteria for such investigations (the specific criteria will
depend on the nature of the national emergency).”

DOJ Second Response

        The FBI is in agreement that we need to work closely with DHS so that
subjects are not detained unnecessarily. In order to facilitate this, the FBI has
joined in partnership with multiple Federal agencies, including DHS, in the
establishment of the Terrorist Threat Integration Center (TTIC). The TTIC will
maintain a database that will function as a reference library or “one-stop-shop”
for all identities information on international terrorists known to the U.S.
Government (USG). This central repository of terrorist identities information
will be available through a classified website to those with appropriate access
(including all JTTFs), as well as serving as the mechanism for nominating
individuals to the newly created Terrorist Screening Center, for watchlisting. It
is intended that the FBI analysts assigned to TTIC will manage the FBI’s
records being inputted into the TTIC database. Director Mueller has directed
field offices of the FBI to place the subjects of open terrorism related
investigations into the FBI’s Terrorism Watch List which is housed within the
National Criminal Information Center (NCIC), in the Violent Gangs and
Terrorist Organization File (VGTOF). The Terrorism Watch List has been the
Counterterrorism Division’s single, integrated listing of individuals of an
investigative interest to the FBI, be that the lone terrorist subject or a specific
terrorist group. It was designed to assist both the intelligence and law
enforcement communities in their investigations of terrorist groups and/or
individuals. The Terrorism Watch List (VGTOF) is in the process of being
consolidated into a single database managed by the TTIC and the Terrorist
Screening Center.

      The Terrorist Screening Center (TSC) will consolidate all existing terrorist
watch lists currently being used by the United States Government into a single
function to provide accurate information to terrorist screeners around the


U.S. Department of Justice, Office of the Inspector General                  5
country on a 24-hour, 7 days a week, real-time basis. This function will
consolidate into one central location information that law enforcement, the
Intelligence Community, and the State Department already possess. This
integration of existing watch list functions of a variety of agencies will enhance
the coordination, consistency and accuracy of on-going efforts by creating a
mechanism for one-stop shopping to be used by local, state, and Federal
officers, as well as others who may have a need to receive this information,
consistent with the Memorandum of Understanding implementing the TSC.

       The FBI is of the opinion that the establishment of this critical program
will serve as the first step for the field offices, and their counterparts in DHS, in
making a determination of whether a subject should be further investigated
and/or detained. In those instances where there is a match of the alien, the
FBI recommendation to DHS would be that the alien is held for further
investigation. If there is no match, the recommendation would be to allow the
subject to be released on bond pending removal proceedings. Again, the FBI
may request that DHS continue to detain an alien even if the subject has no
identifiable traces with anyone within the USIC, if the nature of the subject’s
activity indicated that they were involved in the planning of, or participation in,
a terrorist related activity. All of these decisions would be made at the FBIHQ
level, with input from the field offices, and the recommendation of the FBI
would be passed to the DHS and/or BOP through the National Joint Terrorism
Task Force (NJTTF). Through the continued cooperation shown in the NJTTF,
which was not in existence prior to September 11, 2001, the FBI will be better
prepared to resolve alien background checks in a timely and efficient manner.
In previous OIG correspondence, the concern around the FBI’s definition of “a
subject of interest” who would meet the criteria for detention was heard by the
FBI. In the future, the FBI would consider "a subject of interest" as those
individuals whose name and identifying information appear in the Terrorist
Screening Center (Identities Tracking Database), or the circumstance
surrounding the subject’s detention would indicate a pending act of terrorism.
If a subject’s name is not in the Identities Tracking Database (ITD), and there is
no apparent act of terrorism, the clearance of the investigation will occur at the
level of the Special Agent in Charge (SAC) of the field office conducting the
investigation, with notification to the appropriate unit within FBIHQ. This
system will directly address the OIG’s concern that clearance investigations,
including checks with other agencies, is completed in a timely manner.

      Prior to September 11, 2001, the FBI had 12% of total agent resources
working on counterterrorism investigations. In the first three months following
the attacks, more than half of the FBI’s total resources were working on
counterterrorism investigations. By the end of June 2003, the number of field
agents working counterterrorism had leveled out to approximately 26% of total
resources. However, the number of agents working on counterterrorism
investigations has continued to be higher than the Funded Staffing Level (FSL)


U.S. Department of Justice, Office of the Inspector General                  6
and, as of September 3, 2003, the Counterterrorism Division was utilizing
approximately 950 agents over FSL.

       The FBI has enhanced the National Name Check Unit, within the
Records Management Division, to where it stands today with 119 full time
employees. The National Name Check Unit is now in a position to directly deal
with the large amount of CIA cables being received by the FBI requesting name
checks. In those cases where there are name matches, the cables are directed
to the appropriate unit within FBIHQ which has responsibility for either the
subject’s country of origin, or group affiliation, for further investigation and
analysis. With this re-allocation of resources, the FBI is in a better position
today to deal with a similar situation to the detention of aliens as occurred in
the days, and months, after September 11, 2001.

      FBIHQ has established a policy (effective January 25, 2002) which
requires each field office to report, via “Urgent Reports”, all significant events
occurring within a field office’s jurisdiction to the Strategic Information &
Operations Center (SIOC) immediately. The detention of any alien on the
grounds of suspected terrorism connections would require such a reporting to
FBIHQ.

       Priority criteria for FBI investigations has been developed. Threats
reported to the FBI through the CT Watch receive the highest priority as the
primary mission and focus of the FBI is to prevent, detect and deter terrorist
attacks against the United States and its citizens both at home and abroad. Of
the threats received, those dealing with weapons of mass destruction, including
chemical, biological, radiological and nuclear threats are given the highest
priority. Counterterrorism operations and investigations are prioritized based
on the FBI’s National Threat Assessment. This threat assessment identified the
known, active, terrorist groups having a presence in the United States and
ranked them into three tiers. Those that are prioritized in the first tier have
high intentions to harm the homeland, moderate to strong links with Al-Qa’ida,
and high capabilities to inflict harm. Those that are in the third tier may not
have any perceived intention to harm the United States homeland, little or no
link with Al-Qa’ida and a low capability to inflict harm today. The prioritization
of groups does not mean that those lower tiered groups are necessarily less
threatening. Each threat to the United States must be investigated and each is
considered significant until proven otherwise. This same criteria will be used
in any future major investigation where large numbers of individuals are
subject to detention.

OIG Second Analysis

      We believe that the DOJ’s second response addresses the core concerns
of our recommendation. The response describes how decisions will be made to


U.S. Department of Justice, Office of the Inspector General                 7
determine whether someone is “of interest” to the FBI, and describes a protocol
on how that decision will be made. For its initial decision, the FBI will rely on
information from various places, including from the Terrorist Threat Integration
Center and the Terrorist Screening Center (TSC). Both of these entities are in
the beginning stages of development, particularly the TSC which is not fully
operational. But we believe that the steps described by the DOJ provide
concrete information on how decisions will be made on whether an alien is of
interest to the FBI or whether the alien should be handled according to normal
immigration procedures. The protocols appropriately allow for additional
information to be considered. How this and other information is used in
response to a crisis will be important in avoiding recurrences of problems like
those described in the Detainee Report. But we believe that these protocols are
a significant step forward in addressing this important issue.

      The response also describes additional resources devoted to name checks
and provides a general description of levels of priorities to be given certain
investigations. Again, how these resources are deployed and the procedures
that are implemented in practice will be critical, but we believe that the
structure outlined by the DOJ is responsive to our recommendation.




U.S. Department of Justice, Office of the Inspector General              8
Recommendation 2
Status: Closed

OIG Recommendation

        The FBI should provide immigration authorities (now part of the
Department of Homeland Security (DHS)) and the BOP with a written
assessment of an alien’s likely association with terrorism shortly after an arrest
(preferably within 24 hours). This, in turn, would assist the immigration
authorities in assigning the detainee to an appropriate detention facility and
the BOP in determining the appropriate security level within a particular
facility. In addition, the FBI should promptly communicate any changes in its
assessment of the detainee’s connection to terrorism so that the DHS and BOP
can make appropriate adjustments to the detainee’s conditions of confinement.

DOJ First Response

      We agree with the idea that the FBI should provide DHS and BOP with a
statement as to whether or not the FBI has a continued interest in an
individual alien as expeditiously as possible. The FBI should also update DHS
and BOP as new information of significance becomes available. Depending on
the individual circumstances of the national emergency and the number of
aliens involved, however, it may not be possible for the FBI to provide detailed
written information as to an alien’s suspected ties to terrorism within the
twenty-four hour time frame suggested by the OIG. Also, it may not be
desirable for the FBI to widely disseminate sensitive law enforcement or
national security information related to the FBI’s specific concerns about an
individual alien. We will work with DHS to designate points of contact within
the FBI, BOP and DHS to exchange information that is particularly sensitive
through established channels.

OIG First Analysis

       The DOJ appears to agree in principle with the recommendation that the
FBI should provide the DHS and the BOP with a statement of its interest in a
detainee held in connection with a terrorism investigation as expeditiously as
possible. We also recognize that in some cases the FBI should not disseminate
sensitive law enforcement information about a particular detainee, and we
realize that a variety of factors will affect what information can and should be
provided. However, we believe the FBI should normally provide the DHS with
sufficient information to justify continued detention, denial of bond, and other
restrictive actions. In addition, the FBI should provide the DHS and the BOP
with timely information on individual detainees to enable both agencies to
make appropriate decisions on detention security levels. Moreover, we believe


U.S. Department of Justice, Office of the Inspector General               9
that, in most cases, the FBI’s statements should be provided to the DHS and
the BOP in writing, and should be maintained in the detainee’s case file.

      To close this recommendation, we request that the FBI provide us by
October 3, 2003, with specific details of the type of information it plans to
provide to the DHS and the BOP with regard to its continued interest in a
detainee.

DOJ Second Response

       The FBI agrees with the recommendation of providing a “statement of
interest” to DHS and BOP. While the FBI may not be able to provide such a
statement within 24 hours in all cases, the FBI will provide the statement as
expeditiously as possible while maintaining the integrity of the investigation
and the national security of the United States. The FBI will strive to provide
the “statement of interest” to DHS and BOP in writing. In circumstances where
a written statement is not possible, the FBI will provide an initial statement of
interest verbally and will provide a written statement as soon as possible
thereafter. The FBI is in a position to provide a classified statement of interest
to the appropriate DHS/BOP member, with a security clearance, on the NJTTF.
The FBI has established points of contact with the DHS and BOP, by placing
members of both organizations at the National Joint Terrorism Task Force
(NJTTF), and it would be through this formal relationship that the
dissemination of the information would occur. The FBI has also detailed
personnel within the DHS to facilitate the exchange of information in the event
that the DHS/BOP personnel assigned to the NJTTF were not available.
Classified statements of interest will be protected under laws and procedures
that apply generally to classified national security information.

       The FBI is of the opinion that with the creation of TTIC, and the FBI’s
active participation in this program, the entire intelligence community, not only
the DHS, will have more complete access to all of the pertinent terrorist files in
the FBI. Through TTIC, those members of the DHS and BOP with the
appropriate access to TTIC’s classified website will be able to review the file of a
subject and the basis of that investigation. Any recommendations regarding
detention of a subject would come from the appropriate unit at FBIHQ having
oversight of the subject under investigation, with input from the appropriate
field division. The Terrorist Screening Center (TSC) will be responsible for
developing appropriate policies and criteria to ensure the accuracy of
information in the consolidated watch list data base and to ensure that the
legal safeguards are in place to protect the privacy rights and personal
freedoms, consistent with our Constitution and legal framework. The TSC will
also be responsible for quality control issues, such as ensuring the
appropriateness of entering a particular name when warranted. It will
consolidate overall responsibility for day-to-day operation of the nation’s


U.S. Department of Justice, Office of the Inspector General                10
various terrorist watch lists into a single interagency Center for the purpose of
continuing efforts to protect the nation. As called for by the 9/11
Congressional Joint Inquiry, this streamlined approach is designed to not only
enhance operational efficiencies but to also clearly designate responsibility for
the system – all with the goal of making the country safer.

OIG Second Analysis

       The DOJ agrees with our recommendation to provide an assessment of
an alien’s suspected association with terrorism “as expeditiously as possible,”
but states that it may not be possible to do so within 24 hours in all cases. We
agree that this may not be possible, but we believe that 24 hours should be the
presumptive time frame. The DOJ response appears to recognize the
importance of a quick response, and states that the FBI will strive to provide
the statement of interest in writing, as we recommended. The response also
indicates that if the initial statement of interest is oral, the FBI will provide a
written statement as soon as possible thereafter. This is responsive to our
recommendation.




U.S. Department of Justice, Office of the Inspector General               11
Recommendation 4
Status: Open

OIG Recommendation

       Unless the federal immigration authorities, now part of the DHS, work
closely with the Department and the FBI to develop a more effective process for
sharing information and concerns, the problems inherent in having aliens
detained under the authority of one agency while relying on an investigation
conducted by another agency can result in delays, continuing conflicts, and
concerns about accountability. At a minimum, we recommend that
immigration officials in the DHS enter into a Memorandum of Understanding
(MOU) with the Department and the FBI to formalize policies, responsibilities,
and procedures for managing a national emergency that involves alien
detainees. An MOU should specify a clear chain of command for any inter-
agency working group. Further, the MOU should specify information sharing
and reporting requirements for all members of such an inter-agency working
group.

DOJ First Response

       The creation of a new Department of Homeland Security (DHS) has, by
definition, changed the way such a situation will be handled in the future. In
particular, initial decisions whether to seek to detain illegal aliens during the
course of an investigation into their possible terrorist ties will be made
primarily by DHS. The Department of Justice and the FBI will continue to
provide information for DHS to use in that process. We believe that the
information sharing MOU already signed by the Department of Justice and
DHS will provide DHS with information relevant to detention determinations.
We are willing to consider taking additional measures and providing additional
information requested by DHS as well. We have communicated the substance
of our response on this recommendation to DHS and are awaiting their views.

       Finally, as noted in our response to recommendation 1, we would note
that there are likely to be cases where the FBI may not have a great deal of
specific information about an individual alien but it may nevertheless be
extremely concerned about the release of the alien without further
investigation. In that regard, we disagree with the implied point made in the
recommendation’s preface, that the fact that an alien was arrested in
connection with a PENTTBOM lead was not a sufficient basis for detention.
Release on bond during removal proceedings is discretionary relief, not a right.
The fact that an alien was encountered during a PENTTBOM lead and
warranted further investigation by the FBI was a basis for the concern that the
alien posed a danger and a risk of flight and was thus a proper basis for
pursuing detention. We do agree, however, that efforts should be made to


U.S. Department of Justice, Office of the Inspector General              12
pursue investigative leads quickly to keep such detention brief, understanding
that FBI resources again may face competing priorities in the event of future
terrorist attacks.

OIG First Analysis

      As noted in the DOJ’s response, in March 2003 the DOJ entered into an
MOU with the DHS and the CIA that, according to the MOU, “provides a
framework and guidance to govern information sharing, use, and handling”
between the three agencies. Section 3(p) of the MOU, entitled “Information
Sharing Mechanisms,” states that as soon as practicable the agencies “shall
agree upon specific mechanisms” for sharing specific information and may
designate “focal points, to maximize the effectiveness and coordination for
providing covered information. Subsequent arrangement for information
sharing may be reached upon the approval of the parties of their designees.”

      This MOU, while providing a broad framework of inter-agency
cooperation, necessarily does not provide the level of detail specific to many
potential scenarios. Moreover, as evidenced in the sections cited above, the
MOU envisions the creation of additional mechanisms for sharing information
on a variety of issues.

      With respect to our recommendation, the OIG suggested that the DOJ
and the DHS formalize policies, responsibilities, and procedures for managing a
national emergency that involves alien detainees. The DOJ’s response appears
receptive to this idea, and suggests that it is willing to consider taking
additional steps, beyond those outlined in the broad MOU, to provide the DHS
with additional information relevant to its detention determination for aliens.
However, the response does not state what the additional steps will be or how
they will be implemented.

      To close this recommendation, we request that the DOJ and the DHS
provide by October 3, 2003, further information as to the specific mechanisms
for managing a national emergency that involves alien detainees. In addition,
we request a copy of the DHS response regarding the DOJ’s willingness to
consider taking additional measures and providing additional information to
the DHS.

       Finally, the DOJ’s response states that “we disagree with the implied
point made in the recommendation’s preface, that the fact that an alien was
arrested in connection with a PENTTBOM lead was not a sufficient basis for
detention. Release on bond during removal proceedings is discretionary relief,
not a right. The fact that an alien was encountered during a PENTTBOM lead
and warranted further investigation by the FBI was a basis for the concern that
the alien posed a danger and a risk of flight and was thus a proper basis for


U.S. Department of Justice, Office of the Inspector General            13
pursuing detention.” This is similar to the statement in the second paragraph
of the DOJ’s response to the OIG recommendations, which states:
The OIG report implies that perhaps certain of the 762 aliens detained in
connection with the September 11 investigation should not have been detained
while the Federal Bureau of Investigation (FBI) continued to investigate their
potential ties to terrorism. We believe that the Department made a sound
policy decision immediately after the September 11 attacks to detain aliens
present in the United States who might have connections with or possess
information pertaining to terrorism activities against the United States until they
were cleared by the FBI. These detentions were lawful and necessary to protect
both the American people and the integrity of the largest criminal investigation
in history, as we did not want to lose potential suspects or witnesses. While
aliens in removal proceedings are not entitled to be released on bond, we agree
that, if we were to face a similar situation in the future, efforts should be made
to complete the investigations as quickly as possible. [Emphasis added.]

      While we appreciate the DOJ’s intention in the future to conduct
clearance investigations more expeditiously, we believe the DOJ’s response
misperceives part of the OIG’s recommendation. We did not criticize the
decision to hold and investigate those aliens present in the United States who
had violated immigration laws and who the DOJ believed had connections with
or possessed information pertaining to terrorist activities. Rather, we criticized
the haphazard and indiscriminate manner in which the FBI labeled many
detainees as “of interest” because they potentially had connections to or
information about terrorism. As we stated in the report, even in the hectic
aftermath of the September 11 attacks, we believe the FBI should have taken
more care to distinguish between those aliens who it actually suspected of
having a connection to terrorism from those aliens who were simply encountered
coincidental to a PENTTBOM lead. In New York, all illegal aliens encountered
coincidental to a PENTTBOM lead were considered terrorism suspects and
therefore subject to clearance investigations, while in other parts of the country
the FBI made distinctions as to which aliens it considered terrorism suspects.
We believe this determination should have been more considered and more
uniform throughout the country, given the significant ramifications that flowed
from this initial determination.

DOJ Second Response

       As stated in the responses to Recommendations 1 and 2, DHS is working
closely with the FBI through their participation in the Foreign Terrorist
Tracking Task Force (FTTTF), established by Homeland Security Presidential
Directive (HSPD)-2, dated October 29, 2001. Additionally, HSPD-6, dated
September 16, 2003, established the Terrorist Screening Center (TSC) with
specific DHS participation. The combination of these two entities establishes
new information sharing capabilities. Specifically, the FTTTF maintains a data


U.S. Department of Justice, Office of the Inspector General               14
mart with DHS’s immigration data and FBI’s counter-terrorism data to identify
common interests of the two agencies and assist in locating terrorists and their
supporters. The TSC will maintain a consolidated list of terrorists and those
appropriately suspected to be or have been involved in activities constituting,
in preparation for, in aid of, or related to terrorism. These capabilities enhance
the government’s ability to quickly locate and determine an individual’s
association with terrorists.

       It is clear that, as a general matter, when an alien is arrested on
immigration charges, the FBI will provide DHS with information; DHS will then
make the determination whether a specific alien should be detained. We are
currently exchanging views with DHS regarding the potential terms of a MOU
that would address the detention of aliens following a future terrorist attack.
We believe that we will need some time to complete these negotiations because
it is necessary to preserve flexibility for handling national security-related cases
and want to ensure that a potential MOU does not unduly constrain both
Departments’ ability to adjust readily to different conditions that we may not
have contemplated. In the meantime, the mechanisms described in the
responses to the first and second recommendations ensure that the FBI will
provide appropriate information to DHS in relevant situations.

OIG Second Analysis

       The DOJ’s second response states that the DOJ and the DHS currently
are exchanging views regarding an MOU that would address the detention of
aliens following a future terrorist attack, and that such negotiations will take
time to complete. In order to close this recommendation, please provide the
specific MOU when it is completed or an update as to the status of its
development by March 1, 2004.




U.S. Department of Justice, Office of the Inspector General                15
Recommendation 5
Status: Closed

OIG Recommendation

       We believe it critical for the FBI to devote sufficient resources in its field
offices and at Headquarters to conduct timely clearance investigations on
immigration detainees, especially if the Department institutes a “hold until
cleared” policy. The FBI should assign sufficient resources to conduct the
clearance investigations in a reasonably expeditious manner, sufficient
resources to provide timely information to other agencies (in this case,
additional FBI agents to support the SIOC Working Group), and sufficient
resources to review in a timely manner the results of inquiries of other agencies
(in this case, completed CIA checks). In addition, FBI Headquarters officials
who coordinated the detainee clearance process and FBI field office supervisors
whose agents were conducting the investigations should impose deadlines on
agents to complete background investigations or, in the alternative, reassign
the cases to other agents.

DOJ First Response

       We agree that it is important for the FBI to devote sufficient resources to
these cases. We would note, however, that the FBI was strapped in an
unprecedented way in the aftermath of the September 11 attacks, particularly
following the anthrax attacks.

      In addition, the FBI will explore avenues to obtain additional investigative
resources when a surge capacity is required during a crisis situation, perhaps
based upon a declaration by the Director and/or the Attorney General. For
example, the additional resources to address a shortfall of investigative
resources could be obtained through mutual aid agreements with other federal
law enforcement agencies and the contracting or rehiring of FBI annuitants.

OIG First Analysis

       We believe the DOJ’s response addresses the main part of our
recommendation. However, it is important to note that the OIG report
acknowledged that the FBI was challenged in unprecedented ways by the
September 11 attacks and the numerous investigative leads it had to follow in
the aftermath of the attacks. Yet, we believe it was an unwise investigative
strategy to hold detainees who the FBI apparently suspected of having some
connection to terrorism without conducting reasonably expeditious
investigations of them. For example, if these detainees actually had knowledge
about the terrorism attacks, the FBI’s failure to investigate reasonably quickly
their ties to terrorism potentially resulted in the loss of valuable investigative


U.S. Department of Justice, Office of the Inspector General                 16
information. It also was unfair to allow the detainees who were labeled “of
interest” to languish in highly restrictive detention without any clearance
investigation being conducted. We believe that the FBI could have, and should
have, reallocated some of its personnel that continued to work on non-
terrorism related issues after September 11 to help with the clearance
investigations of those detainees who the FBI had labeled “of interest” to the
terrorism investigation. Alternatively, the FBI could have used the services of
other federal, state, and local law enforcement personnel to help with the
clearance investigations, many of whom had the necessary clearances and had
volunteered to help the FBI in the aftermath of the September 11 attacks.

       The OIG agrees that the FBI should explore developing agreements with
other federal law enforcement agencies that could provide additional
investigative assistance to complete clearance investigations of detained aliens
in a crisis situation. However, we continue to recommend that the FBI develop
a tiered approach to conducting its background investigations. The DOJ
response does not address this issue.

       We believe the FBI should develop criteria to help decide which
investigations to conduct first, so that potentially time-sensitive intelligence
possessed by detainees may be exploited as soon as possible. In addition,
conducting timely background investigations may clear individual detainees of
any connections to terrorism, thereby avoiding unnecessarily prolonged
detention. We also note that the DOJ has not addressed specifically any of the
areas cited in the OIG report that caused delays (pages 58-64), such as delays
at FBI Headquarters in sending informational requests to the CIA and
difficulties in getting personnel with the appropriate skills and access to the
necessary computers to analyze the CIA responses.

      To close this recommendation, the OIG requests more detailed
information from the FBI by October 3, 2003, on its plans to address the
resource and training deficiencies cited in the OIG report and on its efforts to
explore cooperative agreements with other law enforcement agencies.

DOJ Second Response

       Today there are 56 FBI Joint Terrorism Task Forces (JTTF) and 28
annexes spread throughout the United States, with coverage to all states. The
JTTFs are made up of over 25 different Federal agencies and hundreds of state
and local law enforcement agencies. Every JTTF Officer, Agent, and Analyst
has a Top Secret clearance which allows those members unfiltered access to all
of the FBI’s information. In addition to the local JTTFs spread across the
country, the National Joint Terrorism Task Force is located at FBI
Headquarters, where 35 different Federal agencies, with access to their
respective databases, are represented. The FBI believes that the expansion of


U.S. Department of Justice, Office of the Inspector General              17
the JTTF program has addressed the OIG recommendation of adding outside
personnel to assist in the sharing of information, and at the same time utilizing
the services of these additional personnel in future investigations.

       The FBI is of the opinion that with the creation, and participation in
TTIC, the flow of information between not only the FBI and CIA will be
completed in a more timely manner, but the exchange between the FBI and all
members of the USIC will be enhanced. The FBI has enhanced the National
Name Check Unit, within the Records Management Division, to where it stands
today with 119 full time employees. The National Name Check Unit is now in a
position to directly deal with the large amount of CIA cables being received by
the FBI requesting name checks. TTIC will review, and subsequently
nominate, the subjects of terrorist related investigations from various members
of the intelligence community. After a review process, the subjects of
investigative interest maybe referred to the Terrorist Screening Center (TSC).

       The Terrorist Screening Center (TSC) will consolidate all existing terrorist
watch lists currently being used by the United States Government into a single
function to provide accurate information to terrorist screeners around the
country on a 24/7, real-time basis. This function will consolidate into one
central location information that law enforcement, the Intelligence Community,
and the State Department already possess. This integration of existing watch
list functions of a variety of agencies will enhance the coordination, consistency
and accuracy of on-going efforts by creating a mechanism for one-stop
shopping to be sued by used by local, state, and Federal officers, as well as
others who may have a need to receive this information.

       FBIHQ has established a policy (effective 01/25/2002) which requires
each field office to report, via “Urgent Reports”, all significant events occurring
within a Field Division’s jurisdiction to the Strategic Information & Operations
Center (SIOC) immediately. The "Urgent Report" from the field office serves as
a notification process to FBIHQ of a detention (or event) and the proposed
course of investigation. The “Urgent Report” comes from the respective field
division and goes to the executive management of FBIHQ, in addition to the
substantive unit having oversight of that particular terrorist group or region of
the work where the subject is from. The detention of any alien on the grounds
of suspected terrorism connections would require such a reporting to FBIHQ.

       Priority criteria for FBI investigation has been developed. Threats
reported to the FBI through the CT Watch receive the highest priority as the
primary mission and focus of the FBI is to prevent, detect and deter terrorist
attacks against the United States and its citizens both at home and abroad. Of
the threats received, those dealing with weapons of mass destruction, including
chemical, biological, radiological and nuclear threats are given the highest
priority. Counterterrorism operations and investigations are prioritized based


U.S. Department of Justice, Office of the Inspector General                18
on the FBI’s National Threat Assessment. This threat assessment identified the
known, active, terrorist groups having a presence in the United States and
ranked them into three tiers. Those that are prioritized in the first tier have
high intentions to harm the homeland, moderate to strong links with Al-Qa’ida,
and high capabilities to inflict harm. Those that are in the third tier may not
have any perceived intention to harm the United States homeland, little or no
link with Al-Qa’ida and a low capability to inflict harm today. The prioritization
of groups does not mean that those lower tiered groups are necessarily less
threatening. Each threat to the United States must be investigated and each is
considered significant until proven otherwise. These same criteria will be used
in any future major investigation where large numbers of individuals are
subject to detention.

OIG Second Analysis

       We believe the additional resources that the FBI has devoted to
counterterrorism investigations, JTTFs, the TSC, and the FBI Name Check Unit
are important steps that could address the problems that we found stemming
from insufficient resources devoted to clearance investigations in connection
with the September 11 detainees. How those resources are used, and what
priority is given to clearance investigations, ultimately will determine whether
problems similar to the ones we described in the Detainee Report are repeated.
The DOJ’s response generally addresses the question of priority investigations,
but does not directly address the issue of which investigations would be
conducted first, or whether the FBI will impose deadlines or reassign cases to
other agents to ensure that clearance investigations are conducted in a timely
manner. Implementation of these priorities will be the key factor in preventing
similar problems in the future. However, we believe that the DOJ’s actions are
responsive to our recommendation.




U.S. Department of Justice, Office of the Inspector General              19
Recommendation 6
Status: Closed

OIG Recommendation

       We understand the resource constraints confronting the Department in
the days and weeks immediately following the September 11 attacks. We also
recognize that decisions needed to be made quickly and often without time to
consider all the ramifications of these actions. However, within a few weeks of
the terrorist attacks it became apparent to many Department officials that
some of the early policies developed to support the PENTTBOM investigation
were causing problems and should be revisited. Examples of areas of concern
included the FBI’s criteria for expressing interest in a detainee and the "hold
until cleared" policy. We believe the Department should have, at some point
earlier in the PENTTBOM investigation, taken a closer look at the policies it
adopted and critically examined the ramifications of those policies in order to
make appropriate adjustments. We recommend that the Department develop a
process that forces it to reassess early decisions made during a crisis situation
and consider any improvements to those policies.

DOJ First Response

       We agree that policy decisions must always be subject to reassessment
but do not agree that any new process for doing so should be created. There
are already ample processes in place for the Department to reassess its
practices and policies. For example, the Department’s senior national security
team convenes for regular bi-weekly meetings with the Deputy Attorney
General and the Attorney General’s Chief of Staff. There are also regular
component head meetings with the Deputy Attorney General as well as
numerous other formal and informal opportunities for raising policy issues
with the Department’s senior leadership. Of course, the success of any such
process depends on the components involved to provide, through the
components’ leadership, ongoing advice and concrete recommendations
through appropriate means. Such advice and recommendations allow for a
meaningful assessment by the Department’s policy makers. The Department’s
leadership must be informed of the issues by communications from the highest
levels of the components, particularly during a crisis situation. The Attorney
General and the Deputy Attorney General always are and always have been
available if any Department component head wants to discuss an issue or raise
a concern.

OIG First Analysis

     This recommendation did not suggest that the DOJ lacks feedback
mechanisms to reassess its activities under normal conditions. However, the


U.S. Department of Justice, Office of the Inspector General             20
September 11 attacks were an unusual event and our report found that the
DOJ failed to reassess critical legal issues, such as its “hold until cleared”
policy, in a timely manner. We continue to believe that the DOJ should
develop a process – outside its normal processes – that would require a
rigorous re-evaluation of policies and operations implemented during a
national crisis.

DOJ Second Response

       While we appreciate the views of the OIG, we respectfully disagree. In
fact, former Deputy Attorney General Larry Thompson explicitly indicated in
our July 21 response: “[w]e agree that policy decisions must always be subject
to reassessment but do not agree that any new process for doing so should be
created.” The Department is continually reassessing policy decisions in an
attempt to improve our performance, and the Office of the Inspector General
plays an important role in that process. The fact that polices implemented
since September 11, 2001, have evolved illustrate that we are willing and able
to make changes to our policies through established processes. Accordingly,
the Department has concluded that it is not necessary and that it might even
be counterproductive to establish a new and separate bureaucratic process to
evaluate policy decisions during a period of national crisis.

OIG Second Analysis

       The DOJ states that it has carefully considered our recommendation to
establish a specific process, outside the normal channels, to reassess early
decisions made during a crisis situation and consider improvements to those
policies. The DOJ believes its normal processes are adequate and that it might
be counterproductive to establish a new and separate process to evaluate
policy decisions during a crisis. We continue to believe that it would be useful
to establish such a mechanism – in advance of a crisis – to assess initial
decisions, although we recognize that the DOJ’s current mechanisms may work
effectively if they are fully used during such a crisis. Ultimately, however, it is
the DOJ’s responsibility to manage such emergencies. Senior officials believe
that mechanisms currently in existence are adequate and, more importantly,
will be used to reassess initial decisions in a future crisis. Because the DOJ
has carefully considered this recommendation – even though it has declined to
adopt it – we are closing this recommendation.




U.S. Department of Justice, Office of the Inspector General               21
Recommendation 9
Status: Closed

OIG Recommendation

       We recommend that Offices of General Counsel throughout the
Department establish formal processes for identifying legal issues of concern –
like the perceived conflict between the Department’s “hold until cleared” policy
and immigration laws and regulations – and formally raise significant
concerns, in writing, to agency senior management and eventually Department
senior management for resolution. Such processes will be even more
important now that immigration responsibilities have transferred from the
Department to the DHS.

DOJ First Response

       We agree with this recommendation. Department of Justice components
should already be aware that, throughout the Department, components have
an obligation to raise significant legal or policy concerns through the chain of
command to component heads and agency leadership by appropriate means.
The Department’s leadership should be informed of such issues by
communications from the highest levels of the components. With either policy
or legal issues of great import, it may not be adequate to simply raise them in
passing. Rather, it may be appropriate to raise them in writing, with a clear
identification of the issues and an analysis of potential alternatives.

       The Department’s Office of Legal Counsel (OLC) has always been and
remains available to provide legal advice to components, as OLC considers and
sets forth the definitive legal position of the Department and the Executive
Branch. The new Department of Homeland Security (DHS) may avail itself of
OLC’s services in the event DHS believes it needs further guidance on legal
issues.

OIG First Analysis

       As we noted in our analysis of Recommendation 6, normal processes
often break down in a crisis situation, and we continue to believe that
development of a formal process to raise significant legal issues for resolution
by senior management would be useful. For example, as discussed in our
report, high-level DOJ officials responsible for coordinating immigration issues
should have considered the legal ramifications of the DOJ’s “hold until cleared”
policy well before the end of January 2002 when the policy was changed.

     While we recognize that DOJ leaders and OLC are available for
consultation with regard to all legal issues, we believe a more formal


U.S. Department of Justice, Office of the Inspector General              22
mechanism should be established to ensure that significant legal and policy
concerns are considered and addressed in crisis situations.

DOJ Second Response

      Although we agree with the recommendation that legal and policy issues
should be raised in writing to senior Department leadership, we again
respectfully disagree that a new process should be established to raise such
issues during a time of national crisis. In fact, during a crisis situation, we
believe that it is even more critical to use the already established lines of
communication, through the chain of command to component heads and
agency leadership to the Department’s leadership, to ensure that all of the
relevant officials are aware of issues of concern that need to be addressed. We
have, therefore, concluded that agency leadership will notify the Department’s
leadership through existing processes and will provide concrete advice as to
how to resolve the issue.

OIG Second Analysis

       Similar to the preceding recommendation, the DOJ agrees with the intent
of this recommendation to raise in writing to DOJ leadership legal and policy
issues, but it does not believe that any new process needs to be created to
ensure that relevant officials are aware of issues of concern that need to be
addressed. We continue to believe that Offices of General Counsel should
establish a formal process to discuss issues of concern and to ensure that
significant matters are raised in writing at an early stage during a crisis.
However, we recognize that the DOJ’s current mechanisms can work effectively
in a crisis if fully used. Therefore, because the DOJ has carefully considered
our recommendation and has indicated it will use established lines of
communication in a future crisis, we are closing this recommendation.




U.S. Department of Justice, Office of the Inspector General            23
Recommendation 10
Status: Open

OIG Recommendation

        We recommend that the BOP establish a unique Special Management
Category other than WITSEC for aliens arrested on immigration charges who
are suspected of having ties to terrorism. Such a classification should identify
procedures that permit detainees reasonable access to telephones more in
keeping with the detainees’ status as immigration detainees who may not have
retained legal representation by the time they are confined rather than as pre-
trial inmates who most likely have counsel. In addition, BOP officials should
train their staff on any new Special Management Category to avoid repeating
situations such as when MDC staff mistakenly informed people inquiring about
a specific September 11 detainee that the detainee was not held at the facility.

DOJ First Response

       We concur with this recommendation. The BOP originally believed the
new Management Interest Group 155 category that was implemented in late
October 2001 would correct the problems the initial WITSEC assignment had
created with regard to the September 11 immigration detainees. Upon further
review, the BOP believes that this new category continued to cause similar
confusion, as the procedures lacked specificity. Accordingly, new procedures
will be established for the use of the Management Interest Group 155 category
that provide clear and specific guidance. Training will then be provided to
appropriate staff, which we believe will prevent any potential
misunderstandings about the category.

OIG First Analysis

      To close this recommendation, please provide us by October 3, 2003,
with a copy of the BOP’s new procedures and information about its completed
or planned training.

DOJ Second Response

       The Bureau of Prisons (BOP) has developed a new policy to address many
of the OIG’s recommendations. The creation of this policy is an important task
that the BOP has taken seriously in order to ensure the policy addresses as
many issues as possible regarding the housing of detainees during a crisis
situation. While the BOP has completed the review of the policy within the
BOP management structure, BOP procedures require management to provide
the Union with an opportunity to review all new and/or modified policies.
Based on the BOP’s contract, the Union has the right to invoke negotiations


U.S. Department of Justice, Office of the Inspector General            24
within 30 days of receipt. Should the Union choose to invoke negotiations on
this policy, the possibility does exist for revision. Therefore, although this
policy has been signed, it has not yet been implemented. A copy of the new
policy is attached at Tab 1. It has been identified as “Limited Official Use –
Staff Access Only” because the BOP believes that the release of this information
outside the Federal law enforcement community could compromise the security
of the BOP’s institutions and the safety of BOP staff and the general public.

       The new BOP policy, entitled “Management of Select Inmates During
National Security Emergency Situations,” provides clear and specific
procedures, to include telephone access for inmates classified as Category I
Management Interest Inmates. The BOP will incorporate training on this policy
into the BOP’s FY 2005 annual training requirement. Annual training is a
mandatory training requirement for all BOP staff and is completed during the
first 4 months of the calendar year. In addition, training will be provided
during the National Captains’ and Associate Wardens’ Training in FY 2004, as
well as during the BOP Wardens’ Training in FY 2005.

OIG Second Analysis

       We believe the BOP’s new policy, if implemented, will address the
concerns underlying this recommendation. The new policy establishes a
specific inmate category for “of interest” detainees, designates the Intelligence
Section at BOP Headquarters as the unit responsible for determining whether
detainees are still of investigative interest related to a national emergency (to be
updated at least monthly), and mandates that all information used to support
an inmate’s classification as an “of interest” detainee be documented in the
inmate’s central BOP file.

      If fully implemented, we believe this policy should avoid the problems
that were created by the BOP’s classification of the September 11 detainees as
“WITSEC” inmates. To close this recommendation, please notify us when the
policy is implemented. If not implemented before March 1, 2004, please
provide us with an update on the status of the policy.




U.S. Department of Justice, Office of the Inspector General                25
Recommendation 11
Status: Closed

OIG Recommendation

       Given the highly restrictive conditions under which the MDC housed
September 11 detainees, and the slow pace of the FBI’s clearance process, we
believe the BOP should consider requiring written assessments from
immigration authorities and the FBI prior to placing aliens arrested solely on
immigration charges into highly restrictive conditions, such as disciplinary
segregation in its ADMAX SHU. Absent such a particularized assessment from
the FBI and immigration authorities, the BOP should consider applying its
traditional inmate classification procedures to determine the level of secure
confinement required by each detainee.

DOJ First Response

       We agree the FBI should provide the BOP with a statement (verbal or
written) as to the FBI’s interest in the alien but the BOP does not believe that a
detailed assessment should be required. The BOP and FBI will discuss whether
to implement a system to review the level of security for immigration detainees
at regular intervals.

OIG First Analysis

       We continue to believe, as we stated in the discussion of
Recommendation 2, that FBI statements provided to the BOP and DHS
regarding its interest in specific detainees normally should be in writing and be
placed in the detainee’s case file. The information provided by the FBI to the
DHS also should be sufficiently detailed to justify the detainees’ continued
detention, whether the detainee should be released on bond, and other related
issues. Further, the information provided to the BOP should be sufficient to
allow it to make an assessment of the detainees’ potential security risks and
justify confinement under highly restrictive conditions, such as disciplinary
segregation in an Administrative Maximum Special Housing Unit, or ADMAX
SHU. Absent such a particularized assessment from the FBI and immigration
authorities, the BOP should consider applying its traditional inmate
classification procedures to determine the level of secure confinement required
by each detainee.

     To close this recommendation, we request that the DOJ provide, by
October 3, 2003, the results of discussions between the FBI and the BOP about
whether to implement a system to review periodically the security level of
immigration detainees. Specifically, we request that the DOJ’s response
address whether the BOP plans to use its inmate classification procedures to


U.S. Department of Justice, Office of the Inspector General              26
determine an appropriate level of confinement in cases where no information is
forthcoming from the FBI about the security risk posed by individual
immigration detainees.

DOJ Second Response

       The FBI will provide either a verbal or written statement to the BOP and
DHS as to their interest in a detainee. If a written statement is received from
the FBI, the BOP will place the information in the inmate’s central file. If only
a verbal statement is provided, this information will be documented by BOP
staff in the inmate’s central file. Along with, or in the absence of this statement
the BOP will apply its traditional inmate classification procedures to determine
the level of secure confinement required by each detainee. Additionally, on a
monthly basis the BOP will request and receive a status update from the FBI
for each Category I Management Interest Inmate, to determine if continuation
in highly restrictive conditions of confinement is still warranted. All
information used to support the inmate’s classification as a Category I
Management Interest Inmate will be documented in the inmate’s central file.

OIG Second Analysis

      These actions are responsive to the recommendation and we therefore
consider it closed.




U.S. Department of Justice, Office of the Inspector General               27
Recommendation 12
Status: Closed

OIG Recommendation

        We found delays of days and sometimes weeks between when the FBI
notified the BOP that a September 11 detainee had been cleared of ties to
terrorism and when the BOP notified the MDC that the detainee could be
transferred from its ADMAX SHU to the facility’s general population, where
conditions were decidedly less severe. We recommend that BOP Headquarters
develop procedures to improve the timeliness by which it informs local BOP
facilities when the detention conditions of immigration detainees can be
normalized.

DOJ First Response

      We also believe it is important that timely notifications are made. The
BOP will develop written procedures regarding the timeliness by which we
inform local BOP facilities when the detention conditions of detainees can be
normalized.

OIG First Analysis

      To close this recommendation, the OIG requests by October 3, 2003, a
copy of the written procedures for informing local BOP facilities when a
detainee’s detention conditions can be normalized.

DOJ Second Response

       A time frame of 2 business days has been established regarding the
timeliness by which local facilities are informed the detention conditions of
detainees can be normalized. This time frame is contained in the BOP’s new
policy described in the response to Recommendation 10, which is attached at
Tab 1 and marked as “Limited Official Use – Staff Access Only.”

OIG Second Analysis

       The new BOP policy requires that the BOP’s Assistant Director of
Correctional Programs provide written authorization within two business days
to the affected BOP institution when an “of interest” inmate has been removed
from the new Category I Management Interest assignment. The new policy also
stipulates that the BOP institution holding the inmate must remove the inmate
from the Category I status within 24 hours. This policy is responsive to our
recommendation and we consider the recommendation closed.



U.S. Department of Justice, Office of the Inspector General            28
Recommendation 13
Status: Open

OIG Recommendation

      We found evidence indicating a pattern of physical and verbal abuse by
some MDC corrections staff against some September 11 detainees. While the
OIG is continuing its administrative investigation into these matters, we believe
MDC and BOP management should take aggressive and proactive steps to
educate its staff on proper methods of handling detainees (and inmates)
confined in highly restrictive conditions of confinement, such as the ADMAX
SHU. The BOP must be vigilant to ensure that individuals in its custody are
not subjected to harassment or more force than necessary to accomplish
appropriate correctional objectives.

DOJ First Response

       We agree the BOP must remain vigilant to ensure individuals in our
custody are not subjected to harassment or more force than necessary. The
BOP will develop a new policy outlining specific procedures for highly restrictive
conditions of confinement for detainees. This new policy will encompass
procedures for implementing many of the recommendations made by the OIG.
Once the policy is published, training will be scheduled to familiarize staff. In
the view of the BOP, however, the OIG’s finding that there was a “pattern of
physical and verbal abuse” by MDC staff is premature in that there is a
continuing investigation into this matter. To date, the BOP has not received
any investigative reports from the OIG sustaining misconduct against staff
which would support this conclusion.

OIG First Analysis

       As discussed in the report, the OIG concluded that the evidence
indicated a pattern of physical and verbal abuse by some correctional officers
against some September 11 detainees housed at the MDC in Brooklyn, New
York. In June 2003, we provided an interim briefing to the BOP about our
investigation and our findings. The OIG has continued its investigation into
these issues and has found additional evidence to support this finding. We are
now in the process of concluding our investigation into these issues, and we
plan to submit a detailed report to the BOP in the near future that contains
findings and recommendations with regard to individual BOP correctional
officers, as well as systemic issues that the follow-up investigation has
identified. We also intend to release publicly the general findings of that
report.



U.S. Department of Justice, Office of the Inspector General              29
       To close this recommendation, the OIG requests a copy by October 3,
2003, of the new BOP policies to address procedures for handling detainees in
highly-restrictive conditions of confinement and a schedule for BOP employee
training on these new policies.

DOJ Second Response

       The new BOP policy, described in the response to Recommendation 10
and attached at Tab 1 marked as “Limited Official Use – Staff Access Only,”
outlines specific procedures for highly restrictive conditions of confinement for
detainees, including a section which specifically addresses the professionalism
of staff. The BOP will incorporate training in this regard into the BOP’s FY
2005 annual training requirement. The training regarding employee code of
conduct and treatment of inmates will be facilitated by the warden or associate
warden at each institution. In addition, training will be provided during the
National Captains’ and Associate Wardens’ Training in FY 2004, as well as
during the BOP Wardens’ Training in FY 2005.

OIG Second Analysis

       We believe that the BOP’s actions are generally responsive to our
recommendation. The new BOP policy states, among other things, that BOP
staff should conduct themselves in a professional manner at all times and that
any physical or verbal abuse against detainees is “unacceptable.” In addition,
the BOP has indicated it will provide training to BOP employees on these issues
beginning in fiscal year 2004. To close this recommendation, by March 1,
2004, please provide us with a description of that training and when it will
occur.

       In addition, in December 2003 the OIG provided to the BOP a
supplemental report on allegations of physical and verbal abuse against
detainees at the MDC. The supplemental report contained an Appendix
detailing the evidence against individual employees. To close this
recommendation, please provide by March 1, 2004, the actions that the BOP
has taken in response to that supplemental report.




U.S. Department of Justice, Office of the Inspector General              30
Recommendation 14
Status: Closed

OIG Recommendation

       BOP and MDC officials anticipated that some September 11 detainees
might allege they were subject to abuse during their confinement.
Consequently, they took steps to help prevent or refute such allegations by
installing cameras in each ADMAX SHU cell and requiring staff to videotape all
detainees’ movements outside their cells. Unfortunately, the MDC destroyed
the tapes after 30 days. We recommend that the BOP issue new procedures
requiring that videotapes of detainees with alleged ties to terrorism housed in
ADMAX SHU units be retained for at least 60 days.

DOJ First Response

      We agree with the principle behind this recommendation but are unsure
as to whether the recommended 60 days will be adequate to address the issue.
The BOP will further study the length of time videotapes should be maintained
in these circumstances and develop policy to implement.

OIG First Analysis

      As we discussed in the report, the BOP’s decision to allow MDC staff to
destroy or reuse videotapes after 30 days hampered the usefulness of the
BOP’s videotape system to prove or disprove allegations of abuse raised by
individual detainees. We agree that retaining the videotapes for 60 days may
not be adequate to address this issue: our recommendation was that 60 days
was the minimum retention period that the BOP should consider. For
example, the BOP may determine that it should retain all videotapes related to
a detainee for one year after the alien is released or removed from BOP custody.

      To close this recommendation, we request a copy of the BOP’s new
videotape retention policy by October 3, 2003.

DOJ Second Response

      The BOP has conducted a review regarding the length of time videotapes
should be maintained in these circumstances. The attached new BOP policy,
which is described in the response to Recommendation 10, attached at Tab 1
and marked as “Limited Official Use – Staff Access Only,” indicates there may
be times when it is deemed necessary to videotape the inmate(s) routine
movement outside his/her cells, and the staff entrances into the inmate’s cell.
The decision to record this activity will be determined on a case-by-case basis
and approved only by the Assistant Director, Correctional Programs Division.


U.S. Department of Justice, Office of the Inspector General            31
The specific time frame for retention of videotapes will be 6 months and has
been incorporated into the new policy.

OIG Second Analysis

       The new BOP policy requires its staff to retain for six months videotapes
that depict routine inmate movements outside cells and BOP officers’ entrances
into the cells of inmates who are confined pursuant to national emergencies.
We believe this adequately addresses our recommendation and therefore
consider this recommendation closed.




U.S. Department of Justice, Office of the Inspector General            32
Recommendation 15
Status: Closed

OIG Recommendation

       We recommend that the BOP ensure that all immigration detainees
housed in a BOP facility receive full and timely written notice of the facility’s
policies, including procedures for filing complaints. We found that the MDC
failed to consistently provide September 11 detainees with details about its
Administrative Remedy Program, the formal process for filing complaints of
abuse.

DOJ First Response

      We agree with this recommendation. BOP policy requires each inmate
acknowledge receipt of the rules and regulations of confinement, including
procedures for filing complaints. We will take the necessary steps to reinforce
this policy and ensure the notice is provided in a clear and consistent manner.

OIG First Analysis

       As discussed in our report, an MDC official told the OIG that all
September 11 detainees received a facility handbook when they were processed
into the MDC. However, MDC staff apparently confiscated the handbooks as
unacceptable items for the detainees to retain in their ADMAX SHU cells and,
instead, provided many of the detainees with a 2-page summary of MDC
policies that did not contain information about procedures for filing a formal
complaint. We believe that if the BOP ultimately decides for security reasons
that detainees should not be permitted to keep the full facility handbook in
their cells, any summary of these policies must contain information describing
the process for filing a formal complaint.

        To close this recommendation, we request by October 3, 2003, a copy of
the specific actions the BOP will take to reinforce its policies and to ensure that
detainees are informed about the rules and regulations of BOP detention
facilities in which they are confined.

DOJ Second Response

       The importance of all detainees receiving full and timely notice of BOP’s
policies, including procedures for filing complaints, has been reiterated to all
Chief Executive Officers (CEOs) in the attached memorandum from the Director
dated October 30, 2003 (see Tab 2).




U.S. Department of Justice, Office of the Inspector General                33
OIG Second Analysis

       We believe the clarification of BOP policy contained in the October 2003
memorandum from the Director is responsive to this recommendation. The
policy for Category I inmates is explicit that they must receive and be permitted
to retain the Admission and Orientation Handbook, which includes the
procedures for filing an Inmate Request to Staff and Administrative Remedies.
The memorandum from the Director of the BOP also explicitly states that all
newly admitted inmates should “receive full and timely written notice of our
policies and are allowed to retain institution and Admission and Orientation
handbooks, which should include the Inmate’s Rights and Responsibilities.” It
further states that, “These documents should be issued during intake and
include procedures for filing Inmate Request to Staff and Administrative
Remedies in accordance with current BOP policy.” These actions reinforce BOP
policy that detainees be informed about BOP rules and regulations, including
those for filing a formal complaint. We therefore consider this recommendation
closed.




U.S. Department of Justice, Office of the Inspector General             34
Recommendation 16
Status: Open

OIG Recommendation

       Some MDC correctional staff asked detainees “are you okay” as a way to
inquire whether they wanted their once-a-week legal telephone call. Detainees
told the OIG that they misunderstood this question and, consequently,
unknowingly waived their opportunity to place a legal call. We recommend
that the BOP develop a national policy requiring detainees housed in SHUs to
affirm their request for or refusal of a legal telephone call, and that such
affirmance or refusal be recorded in the facility’s Legal Call Log.

DOJ First Response

       We will incorporate into the policy described in the response to
Recommendation 13 the need to allow detainees held in highly restrictive
conditions of confinement an appropriate level of communication with counsel.
This policy will include the requirement that staff ensure detainees gain initial
access to an attorney and that staff document such access (or refusal by the
inmate). This policy will be helpful for immigration detainees who have the
right to counsel at no expense to the government.

       We would note that we have become increasingly aware that with respect
to certain pretrial inmates legal phone calls may present substantial
opportunities for the transmission of information that could threaten national
security and/or public safety. These calls are unmonitored and the staff
cannot verify or control who is a party to the call. Accordingly, we intend to
carefully review our policy on legal phone calls for pretrial inmates.

       Once detainees have obtained counsel, we believe our current policies
and procedures provide sufficient opportunities for pretrial inmates (defined in
28 C.F.R. § 551.101(a)(1) to include detainees) to communicate with legal
counsel. Detainees have access to unmonitored inmate-attorney
correspondence, an opportunity for private legal visits on a daily basis, and the
ability to make unmonitored calls to their attorney upon the inmate’s request,
as often as resources of the institution allow. 28 C.F.R. § 551.117. This access
is available to all detainees and other pretrial inmates including those assigned
to Special Housing Units (SHU).

OIG First Analysis

       The BOP agrees in principle with our recommendation to revise its
policies to facilitate detainees’ ability to obtain legal representation when they



U.S. Department of Justice, Office of the Inspector General                35
first arrive at a BOP facility, and the DOJ response states that the BOP will
incorporate policy changes in this area.

       However, the response does not clearly address the situation we found in
which an MDC unit counselor used the phrase, “are you okay,” to ask
September 11 detainees if they wanted their weekly legal telephone call. The
OIG report determined that the use of this shorthand statement unduly
hindered detainees’ ability to consult with legal counsel. We therefore believe
the new policy should require the BOP to have detainees housed in SHUs state
clearly their request or refusal to make a legal telephone call, and that this
request or refusal be recorded in the facility’s Legal Call Log.

     To close this recommendation, we request by October 3, 2003, a copy of
the BOP’s policy implementing this recommendation.

DOJ Second Response

      BOP staff are required to make routine rounds through the Special
Housing Unit. In doing so, staff routinely ask inmates “are you okay” or other
similar questions to inquire about their general well-being and any issues or
concerns they need to address. Asking “are you okay” was not intended to be a
proxy for asking a detainee whether they would like a legal phone call.

       The BOP reviewed current policy regarding telephone access for pretrial
detainees and determined changes are not necessary. However, specific
guidance regarding telephone access for Category I Management Interest
Inmates is outlined in the new BOP policy, which is described in the response
to Recommendation 10, attached at Tab 1 and marked as “Limited Official Use
– Staff Access Only.” This policy includes the requirement that staff ensure
detainees gain initial access to an attorney and document in a legal call
logbook such access or refusal by the inmate.

OIG Second Analysis

       We believe that the BOP’s response may not clearly address the problems
that we identified in our Detainee Report. First, we believe that the BOP’s
response regarding Category 1 inmates – that they will have guaranteed access
to telephones for legal calls – is appropriate and responsive. However, it is not
clear if pretrial detainees, like the September 11 detainees described in the
Detainee Report, will be classified as Category 1 inmates and, if so, whether
they will be subject to these revised policies. To close this recommendation,
please provide clarification on this issue.

      The BOP’s response included revised policies that apply to all inmates
held in the Special Housing Unit in Brooklyn, New York. Those revised policies


U.S. Department of Justice, Office of the Inspector General              36
provide for access to legal calls for such inmates, but only if the inmate first
submits a request for a call. They do not require any staff member to offer
legal phone calls to the inmates, or to keep a record of whether inmates accept
or decline offers of legal phone calls.

      In addition, the DOJ response was inaccurate in stating that BOP staff at
the MDC routinely asked September 11 detainees “are you okay” to inquire
about their well-being and that the question was not intended as a proxy for
asking whether the detainees would like a legal telephone call. In fact, this
statement is directly contradicted by what we were told by the BOP employee
who was responsible for providing telephone calls to the September 11
detainees at the MDC. He admitted to the OIG that he considered a detainee’s
affirmative answer to his question “are you okay” to mean that the detainee did
not want a legal call that week.

       To close this recommendation, we request by March 1, 2004, information
regarding how detainees who are not in Management Category 1, and who are
not charged criminally, will be provided with access to telephones to obtain and
communicate with legal counsel. With respect to these inmates, we request
information regarding who will provide access to legal calls, how often the calls
will be provided, and whether an inmate’s acceptance or refusal of such a call
will be recorded in the facility’s Legal Telephone Log Book.




U.S. Department of Justice, Office of the Inspector General             37
Recommendation 17
Status: Open

OIG Recommendation

       We recommend that the MDC examine its ADMAX SHU policies and
practices in light of the September 11 detainees’ experiences to ensure their
appropriateness and necessity. For example, we found that while the MDC
offered September 11 detainees exercise time in the facility’s open-air
recreation cell, they failed to provide suitable clothing during the winter
months that would enable the detainees to take advantage of this opportunity.
In addition, we found that the MDC kept both lights on in the detainees’ cells
24 hours a day for several months after they had the ability to turn off at least
one of the cell lights.

DOJ First Response

      We concur with this recommendation. The BOP will review the MDC’s
housing unit policies and conditions to ensure they are appropriate and that
detainees with suspected ties to terrorism are detained in conditions with the
appropriate level of security.

OIG First Analysis

      To close this recommendation, we request by October 3, 2003, a copy of
the BOP’s review of the MDC’s housing unit policies that address the specific
issues raised in the recommendation. We also believe that any policy revisions
that result from this review should be implemented throughout the BOP, and
not solely at the MDC.

DOJ Second Response

       The BOP conducted a review of the MDC’s Special Housing Unit policies
and made recommendations for change. The MDC revised its policies based on
this review and recommendations. The BOP reviewed and approved the revised
policies. A copy of the BOP’s reviews and MDC’s policies are attached at Tab 3.
These documents are also marked as “Sensitive Limited Official Use Only” due
to our belief that release of these documents outside the Federal law
enforcement community could compromise the security of our institutions and
the safety of our staffs and the general public.

      It was determined national policy did not require a revision, as the
problems noted at the MDC were local. The Director has, however, addressed
these issues in a memorandum to all Chief Executive Officers (see Tab 2).



U.S. Department of Justice, Office of the Inspector General              38
OIG Second Analysis

      We believe the BOP’s new policies are generally responsive to our
recommendation. Although the policies state that staff members must provide
inmates “foul weather gear” during “inclement weather,” we believe that
“inclement weather” includes cold weather, which was the issue in the
Detainee Report.

      While some of the problems identified in the Detainee Report were
unique to the MDC, we continue to believe that certain policy revisions that
result from this review should be implemented throughout the BOP.

       To close this recommendation, we request by March 1, 2004, a copy of
the housing unit policies at the MDC that address the specific issues raised in
this second analysis. We also request that the BOP reconsider its decision not
to implement these policy revisions throughout the BOP.




U.S. Department of Justice, Office of the Inspector General            39
Recommendation 20
Status: Closed

OIG Recommendation

      How long the INS legally could hold September 11 detainees after they
have received final orders of removal or voluntary departure orders in order to
conduct FBI clearance checks was the subject of differing opinions within the
INS and the Department. A February 2003 opinion by the Department’s Office
of Legal Counsel concluded, however, that the INS could hold a detainee
beyond the normal removal time for this purpose. That issue also is a subject
in an ongoing lawsuit.

      Regardless of the outcome of the court case, we concluded that the
Department failed to turn its attention in a timely manner to the question of its
authority to detain such individuals. Where policies are implemented that
could result in the prolonged confinement of illegal aliens, we recommend that
the Department carefully examine, at an early stage, the limits on its legal
authority to detain these individuals.

DOJ First Response

       We agree with this recommendation. Because the initial detention
authority for aliens in immigration proceedings is now with the Department of
Homeland Security, however, we believe that this recommendation is primarily
applicable to that Department. This recommendation also is addressed in part
by our response to Recommendation 9. And, as the Inspector General’s report
notes, the February 2003 legal opinion issued by the Office of Legal Counsel
addresses the legal issues presented by the detention of the September 11
detainees. That opinion makes clear that the Department of Homeland
Security may detain illegal aliens during their removal proceedings and after a
formal order of removal for the purpose of investigating their possible ties to
terrorism, at least for the six months deemed presumptively reasonable by the
Supreme Court in Zadvydas v. Davis.

OIG First Analysis

       The DOJ’s response does not explain how it plans to address, in a
timelier manner, legal questions regarding the federal government’s authority
to detain such individuals. The OLC opinion mentioned in both the OIG
recommendation and the DOJ’s response was not issued until February 2003 –
one year after the DOJ changed its policy and began releasing individual
detainees without completing an FBI clearance investigation related to their
potential connections to terrorism.



U.S. Department of Justice, Office of the Inspector General             40
      While the majority of aliens will be confined under the jurisdiction of the
DHS in the future, legal issues relating to detainee confinement are likely to
remain within the jurisdiction of the DOJ. Given the situation the DOJ
encountered in identifying and resolving issues related to its legal detention
authority in a timely manner after the September 11 attacks, we continue to
believe that the DOJ, along with the DHS, should adopt a mechanism to
carefully examine, at an early stage, the parameters of the legal authority for
confining immigration detainees for an extended period of time.

DOJ Second Response

      Our responses to the OIG’s analyses for the first, second, fourth and fifth
recommendations describe the new terrorist-related entities that have been
established since September 11, 2001, such as the FTTTF and TTIC, as well as
the augmentation of counterterrorism resources within the FBI. With these
enhancements, we believe that, in the event of another large-scale terrorist
attack, we will have a much-improved flow of information related to aliens
encountered during the investigation of that attack. Consequently, the FBI will
be able to provide DHS with information expeditiously about aliens whom the
FBI believes may pose national security concerns. Also, as noted in our
response to the fourth recommendation, DHS, not the Department of Justice or
the FBI, will make the initial determination whether aliens will be maintained
in custody. The Department of Justice’s role will be limited to the FBI’s
providing information to DHS and to the immigration judges and the Board of
Immigration Appeals (part of the Executive Office for Immigration Review)
conducting bond redetermination hearings and deciding bond appeals.

       In addition to being able to provide information to DHS on a more
targeted basis, we believe that OLC’s February 2003 legal opinion and other
legal research on detention issues that has been conducted since September
11, 2001, both the Department of Justice and DHS already have knowledge
concerning the federal government’s legal authority for detaining aliens who are
present in the United States in violation of law. Also, the Civil Division and the
Offices of Legal Counsel and Solicitor General are constantly monitoring new
developments in case law, and the Office of Legislative Affairs monitors
Congressional consideration of new legislation. By copying the heads of these
components on this memorandum, I am instructing these offices to pay special
attention to immigration detention-related issues and to provide immediate
notice to OLC and DHS of developments that would affect the existing legal
opinions on the issue. We have concluded that providing this instruction to
these Department components and making OLC available to provide prompt
advice to DHS during a crisis situation is the best way to “carefully examine, at
an early stage, the limits” on legal authority to detain aliens encountered
during a future investigation resulting from a terrorist attack.



U.S. Department of Justice, Office of the Inspector General              41
OIG Second Analysis

       The DOJ’s response, similar to its responses to recommendations 6 and
9, is that mechanisms currently in place are adequate to reexamine any legal
issues that arise in an emergency situation. Similar to our responses to those
two recommendations, we believe the DOJ should develop an additional
mechanism to ensure that these issues are addressed timely during a future
crisis. Having said that, we again recognize that the current mechanism can
work if implemented fully and effectively. Consequently, based on the DOJ’s
consideration of this response and indication that it will use the current
mechanisms to carefully examine the legal limits on holding detainees, we are
closing this recommendation.




U.S. Department of Justice, Office of the Inspector General            42
                                                                         u.s. Department of Homeland Security
                                                                         Washington,DC 20528




                                                                November 21, 2003

                                   :MEMORANDUM

TO:            Clark Kent Ervin
              Acting Inspector General

FROM:         Asa Hutchinson 1\         !~t;i~t!~;~i~~~~~iC~'~:-::;:S-
               Under Secretary~~~-o:rderand Transportation Security

SUBJECT:      Responseto the U.S. Departmentof Justice Office of Inspector General
              Report, TheSeptember11 Detainees: A Review of the Treatment ofAliens
              Held on Immigration Chargesin Connection with the Investigation of the
              September11 Attacb.


Our core mission at the Departmentof Homeland Security is not just to protect America' 8
assets-our buildings and airports and power plants -but to protect America and our way
of life. We are committed to ensuring that aswe take aggressivemeasuresto improve
our nation's security, we will implement thosemeasuresin ways that respect our civil
rights and civil liberties.

In this,context, the Department of Homeland Security (DHS) takes very seriously the
findings and recommendationscontainedin the Departmentof Justice Inspector
General's report (DOJ OIG report) regarding September1.1detainees.Of course,the
report analyzesevents that took place before the fomlation of our Department.
Nevertheless,the report is highly relevantto our work. As you know ~DHS assumed
 many of the immigration functions that were, during that critical time period, part of the
JusticeDepartment. Weare working closely with our outstanding colleaguesin DOJ as
we manage together this major reorganizationof the federal government. The two
agenciesare working togetherto establisheffective meansof coordination and
 communication in a number of areas,including with regard to situations involving aliens
of interestto terrorism investigations.
                                                            ~


As described in this memorandum,we have taken significant stepsto remedy concerns
identified by the Inspector Generalregarding the handling of aliens in the aftermath of
September11. Some of our actionsprecededthe findings by the Inspector Generalwhile
others were developed after careful review of the report and recommendations.
Moreover, we consider this an on-going process-long after we have addressedthe
recommendationsby the Inspector Generalin this report, we will continue to review our
policies and proceduresto ensurethat we carefully respectthe civil rights and civil
liberties ofal1 people in the United States.

                                              1
                                                                                                m~~~
I. BACKGROUND

On June 2, 2003, the DOJ OIG issuedthe report, "The September11 Detainees: A
Review of the Treatment of Aliens Held on Immigration Chargesin Connection with the
Investigation of the September11 Attacks." The OIG report examinedthe treatmentof
sevenhundred and s~-two aliens detainedin coimection with DOJ's terrorism
investigation. The report identified concernswith respectto: the length of the detainees'
confinement; the processto clear individual detaineesof a connectionto the September
11 attacks or terrorism in general;bond determinations;the removal process and the
timing of removal; and conditions of confinement, including accessto legal counsel. The
DOJ DIG made twenty-one recommendationsto DOJ and DHS related to the issues
discussedin the report.

On June 17,2003, you sentme a memorandum.stating th~ltthe DHS Office of Inspector
General(DHS OIG) would monitor the recommendationsmade by the DOJ OIG to
ensurethat DHS takes appropriateand corrective action.

On August 4, 2003, I provided you with DHS' s interim re:sponsesto the DIG report. By
memorandumof July 21, 2003, the Deputy Attorney General, on behalf of the Attorney
General's office, the Federal Bureau of Investigation (FBI), and the Bureau of Prisons
(BOP), provided the DGJ GIG with responses.

On September4, 2003, the DO! DIG senta letter and replortto DOJ and DHS analyzing
eachagency's responsesto the reconunendations. The analysis noted that both agencies
are taking the DIG recommendationsseriouslyand taking stepsto addressmany concerns
raised by the report. While the DOJ DIG concluded that DHS responsesadequately
addressedsome recommendations,it rightly concluded that additional infomlation is
necessaryto addressothers. The purposeof this memorandumis to provide that
additional infomlation.

ll. SUMMARY OF DDS ACTIONS TO ADDRESS THE OIG REPORT

Well in advanceof the releaseof the OIG Report, DHS and its Border and Transportation
Security Directorate (BTS) had initiated a seriesof actions and policy changesthat
addressseveral of the GIG's findings and recommendations. The OIG report servedas
an additional catalyst for a reevaluationof policies and practices surrounding the
detention of aliens in the context of eventsof national im]?act. Over the past several
months,-we have calried out a comprehensiveinternal re~iew of immigration-related
operationsin DHS. Working at my direction, the review has been led by C. Stewart
Verdery, Jr., the Assistant Secretaryfor Border and Transportation Security Policy and
Planning; Daniel W. Sutherland,the Department's Officer for Civil Rights and Civil
Liberties; md, Victor X. Cerda,the Acting Principal Legal Advisor for BTS' s

                                            2
Immigration and Customs Enforcement Bureau (ICE). As part of this review, we met
with and consideredthe views of a coalition of civil rights and civil liberties groups that
expressedconcernsabout the government's handling of the investigations and detentions
of aliens in the period following September11. We alsoreceived insight from scholars
who have studied the post-Septemberl! immigration measures.

While we provide a specific responsefor eachof the GIG's recommendations,our
actions fall into five broad categories.

First, we are diligently working to improve coordination betweenDHS and DOl. Many
of the issuesdiscussedin the OIG report relate to issuesof communication betweenthe
Federal Bureau of Investigation (FBI) and the Immigration and Naturalization Service
(INS) in the weeks and months following September11, 2001.1 It is critical to remember
how devastatingthe events of September11 were to thosewho were responsible for
enforcing our nation's laws. Numerous governmentlocations had to be evacuate~
including law enforcementoffices and immigration detentionfacilities. When anthrax
was mailed to several governmentfacilities, the work was made even more difficult.
Throughout theseweeks and months, federal investigators, intelligence analysts,
detentionofficers, prosecutors,andjudges performed under extremely difficult
circumstances. America is proud of the heroic and courageouswork done by our
country's law enforcementcommunity.

While recognizing the incredible work done during that time period under difficult
circumstances,it is appropriate to make changesin policy to ensure that our
communications and coordination are improved in casesuchan event is repeated. One of
the critical items that we are addressingis coordination betweenDOl, primarily fue FBI,
and DHS' s law enforcementofficers and attorneys. DHS is discussing with DOl a
proposed memorandum of understanding(MOU) that would improve our coordination
and flow of conununications. Our discussionsare centerulg on the need for a concrete set
of proceduresto handle a large-scaleinflux of alien detaiIJlees
                                                              who may presentnational .
security risks. We believe that thesenew policies and procedureswould significantly
improve coordination between theseagencieswith regard to the detention of aliens
during times of national impact.

Secon~ we will institute changesin policy to ensurethat ~llienswho are arrestedare
infonned of the charges againstthem in a timely fashion! The OIG concluded that
                                                                    .
 J At the time, the FBI and INS were both part of the Department of Justice. Under the Homeland Security
..Act of2002, the INS was replaced by three new organizationsthat arl=part of the Department of Homeland
 Security: the Bureau of Immigration and CustomsEnforcement (ICE;I, the Bureau of Customsand Border
  Protection (CBP), and the Bureau of Citizenship and Immigration SeIvices (CIS). The fust two are part of
 the Border and Transportation SecurityDirectorate, and the third reports directly to the Deputy Secretary of
 Homeland Security.
  2At severalplaces in this memorandum.we refer to policy changesthat we will soon put in place. It is our
judgment that we should issue to the field all policy changesat one time. If we issue policy directives in a
piecemeal fashion, it might serve to confuse rather than guide DHS employeesas they carry out their
duties. Therefore, when DHS concludesits negotiationswith DO] regarding an MOU, a comprehensiveset
of guidance will be issuedto the field. We are committed to concluding these negotiations in the
                                                      3
immigration officials did not promptly serve someof the detaineeswith documents
explaining the chargesfiled againstthem. According to the OIG Rep.ort,at leasttwenty-
five percent of detaineeswere held more than three days without being provided a reason
for their arrest. DHS is taking stepsnecessaryto fomlalize the process for ensuring that
aliens are promptly infomled of the chargesagainstthem. As explained below, we will ~
soonissue guidance aimed at fonnalizing the practice of providmg service to the alien of
a notice of chargeswithin 72 hours of the time an alien has been anested and detained. If
specific "extraordinary circumstances"arepresent,the charging decision and notice to
the alien can be served within an additional shortperiod of time. The guidance will
defme what is intended by extraordinary circumstancesand provide that the notice be
servedas soon aspracticable.


A related issue is the GIG's concernthat immigration headquartersoffice and field
offices were not sufficiently coordinated with respectto which office was responsible for
issuing the notices of charges. As explainedbelow, DHS will issue proceduresthat will
localize the initial clearanceof the Notices to Appear. The procedureswill also state that
local offices will be responsible for servingthe Notices to Appear in all but a limited
number of cases-cases involving national security and re:latedgrounds. We are
confident that this division of responsibilities will ensurea more timely and efficient
processof notifying aliens that are detainedof the charge~1   againstthem.

Third, we are committed to ensuring that DHS independentlyreviews the individual
circumstancesof eachcasein which the FBI requestsdetention solely based upon
information regarding an alien's possible associationto terrorism. Directions have been
given that DHS officers and attorneys carefully study the underlying facts in eachcase
and make assessmentsas to both the necessityfor detention and the appropriate
conditions of confinement in every case. By doing so, the agencywill properly exercise
its resp.onsibilitiesconcerning the arrestand detention of aliens. This will also ensurethat
ICE can make the proper recommendationsto the immigration courts on bond, detention
and removal. This independentassessment      is essentialbetcauseICE attorneys are officers
of the court and must have confidence in the representationsmade to the court.

Fourth, we have already taken strong stepstoward monitoring and oversight of the
conditions of confinement for detainees.ICE's Detention and Removal Office (DRO)
issued a new '"detention standard" in July 2003 that ensurf~sthat immigration and customs
enforcementofficials visit detaineesregularly to monitor (;onditions of confinement and
addressconcerns. The OIG hasconcluded that this detentionstandardresolves the
recommendationsrelated to conditions of confinement. Nevertheless,we are committed
to revisiting our detentionpracticesto ensurethat they are both strong and fair. This
review of our detentionpolicies is on-going. The Officer for Civil Rights and Civil
Liberties will continue to work closely with DRO on this project.

immediate future. The comprehensiveguidance will disc~s, at a minimum, the tenDSof the new policies
and procedures establishedwith respectto DO!; the proceduresfor ensuring that aliens are informed of the
chargesagainst them in a timely fashion; the proceduresfor localizing the initial clearancesof Notices to
Appear; and, the procedures for robustpost-order custodyreviews.
                                                    4
    Finally, we are committed to strengtheningour efforts to conduct post-order custody
    reviews. The OIG recommendedthat DHS improve efforts to review the casesof those
    aliens detained for more than 90 days after receiving final orders of removal. We will
    ensurethat post-order custodyreviews are conducted consistentlyand effectively, and, as
    describedbelow, will issue new guidanceto ICE field offices to guaranteethat these
    reviews are completed.

    By strengtheningour policies and practicesin these five primary areas,we believe that
    DHS furthers its goals of strengtheningnational security and upholding the rule of law.

    ill. SPECIFIC RESPONSES TO THE DOJ OIG RECOMMENDATIONS

    The following are DHS's specific responsesto recommendationsthat apply to areasin
    which DHS hasjurisdiction.

                       Enhancing Communications and C~[)ordination

           RECOMMENDATION 1. The FBI should develop clearer and more objective
           criteria to guide its classification decisionsin future casesinvolving mass arrests
           of illegal aliens in connectionwith terrorism investigations. The FBI should
           consider adopting a tiered approachto detaineebackground investigations that
           acknowledgesthe differing levels of inquiry that may be appropriateto clear
           different detaineesof connectionsto terrorism.

           RECOMMENDATION 2. The FBI should provide DHS with a written
           assessmentof an alien's likely associationwith terrorism shortly after arrest and
           preferably within 24 hours, and promptly communicate any changesin their
           assessment.

           RECOMMENDATION 3: Unless the FBI labels an alien "of interest" to its
           terrorism investigation within a limited period of time, we believe the alien should
           be treated as a "regular" immigration detaineeand processedaccording to the
           routine procedures. The DHS should establisha c~Dnsistent    mechanismto notify
           the FBI of its plans to releaseor deport such a detainee.

           RECOMMENDATION 4: At a minimum, we recommend that immigration
           officials in the DHS enterinto a Memorandum of oUnderstanding(MOU) with the
           Department and the FBI to formalize policies, responsibilities, and procedures for
           managing a national emergencythat involves alien detainees. An MOU should
           specify a clear chain of commandfor any inter-agencyworlcing group. Further,
           the MOU should specify information sharing and reporting requirements for all
           members of such an inter-agencyworking group.

           Response: DHS is currently discussingwith DOl a memorandumof
           underst"anding(MOU) that could setforth the process for coordination and
                                                5


.
    communications during periods of time in which the country is dealing with
    eventsof national impact. DHS believes that our discussionswith DOl will fully
    addressthe issuesraised by theserecommendationsby describing a consistent
    procedure for the handling of "special interest" cases. Our discussionscunently
    focus on the need to formalize policies, responsibilities, and proceduresthat will
    guide DHS, and particularly ICE, and the FBI in the caseof events of national
    impact involving alien detainees. DHS also foreseesthe fofnlation of an inter-
     agencyworking group consisting of FBI and BTS officials that would meet
    regularly and share infonnation during suchperiods. Our discussionsshould
    produce a clear chain of commandand include a mechanismto resolve any
    dispute that cannotbe resolved by the inter-agency working group. With these
    new policies and procedures,we believe that the OIG's concernswill have been
    addressed. We will report to you on progressin enteringinto a new setof
    proceduresand policies with DOl.

                                    Notice of Charges:

    :QECOMMENDATION 7: Immigration authorities should issue instructions that
    clarify, for future eventsrequiring centralized approvals at a Headquarters' level,
    which District Office is responsible for serving Notices to Appear (NTA) on
    transferred,detainees.

    Response: DHS agreeswith the need for comprehensiveinstructions to clarify,
    for future eventsrequiring centralized approvals at the headquarters'level, how
    NTAs shall be served on transferreddetainees. Based on past experience,ICE
    has decided to establishproceduresto localize the initial clearance of NT As in the
    field offices. Further, local ICE offices will be responsible for serving NTAs in
    all but a limited number of casesinvolving national security and related grounds.
    This guidance will be disseminatedto the field.

    RECOMMENDATION 8: We recommendthat the DHS document when the
    charging detemrinationis made, in order to determine compliance with the "48-
    hour role." We also recommend that DHS convert the 72-hour NTA service
    objective to a formal requirement. Further, we recommend that the DHS specify
    the "extraordinary circumstances"and the "reasonableperiod of time." We also
    recommend that the DHS provide, on a case-by-casebasis, written justification
    for imposing the "extraordinary circumstances"exception.
                                                       ~


    Response: Weare committed to ensuring that DHS officials make detenninations
    to charge an individual as expeditiously aspossible after arrest and within 48
    hours, and that they serveformal chargeson an alien (the Notice to Appear) who
    is-being detained within 72 hours of the time he or she is arrested.At the same
    time, we believe that there is a needto retain flexibility in the processbased on
    unique and extraordinary circumstancesthat may develop. Therefore, DHS will
    issue new guidanceto the field that incorporatesthe following elements:


                                         6



.
            A deternrination will be made within 48 hours of the arrest as to whether
            the alien will be continued in custodyor released011bond or recognizance
            and whether a notice to appear(N'FA) and warrant of arrest will be issued.
            The charging determinationand the date of service oftheNTA, if any,
            shall be documentedin the alien's official file.
            Service of the NTA on the alien shall be made within 72 hours of the
            arrest.
            Theseparametersneed not be applied in the event of an emergencyor
            other extraordinary circumstance,in which casea determination will be
            made as soon as practicable.
            An emergencyor other extraordinary circumstanceexists in the following
            narrow circumstances:if tl1ereis a significant infrastructure or logistical
            disruption suchas a weather em~gency or terrorist act(s), or, there is a
            compelling law enforcementneed.

    Proceduresand a form.to annotatethe charging determination and service of the
    NTA will be developed and disseminatedto the field. This guidance will be
    issuedalong with the final policies andprocedure~:negotiated with the DOl.

                  Issues of Concern During Times of National Impact

    RECOMMENDATION 9: INS General Counselshould institute formal
    processesto ensurethat issuesof legal concernare communicatedto senior
    managementat DOJ in a proper and timely manner.

    Response: As we createthe new Department,we are verylmindful of the need to
    provide effective lines of communication. In orde:rto implbment the spirit of this
    recommendation,we will take two steps. First, we will not hesitate to
    communicate through proper channelswithinDHS and to our colleagueswithin
    DO! regarding issuesof mutual concern. The proposedpolicies we are discussing
    with DOJ would identify key seniorpositions within eachDepartment that will be
    responsible for resolving any issuesbetweenthe components that have not been
    resolved in the due courseof business.

    Second,DHSts leadershipwill encourageemployeesthroughout the organization
    to raise issuesof concern.We will make clear that during a time of eventsof
    national impactt employeesthroughoutthe organization may raise issuesof
    concernto either th~ DHS General Counselor thepepartmentts Officer for Civil
    Rights and Civil Liberties. Both of theseofficials report directly to the Secretary
    for Homeland Security, and thereforecan presentissuesto the senior leadership
    of the Department. Both of theseofficials will also ensurethe confidentiality of
    the identity of those who raise suchconcerns. This mechanism will promote a
    free flow of communication aboutcritical issuesthat face tlile Department during
    times of crisis.



                                         7



.
                                   Detention Standards

    RECOMMENDAllON           18: We recommendthat the DHS amend its detention
    standardsto mandate that District Detention and Removal persoIUlelvisit
    immigration detaineesat contractfacilities. We further recommend that the DHS
    issueproceduresto mandate that contract detentionfacilities transmit
    documentationto the appropriateDHS field office that describes why
    immigration detaineeshave been sentto SDUs.

    RECOMMENDATION 19: We recommendthat DHS field offices conduct
    weekly visits with detaineesarrestedin connection with a national emergencylike
    the September11 attacks to ensurethat they are housed according to FBI threat
    assessments.In addition, the DHS should ensurethat the detaineeshave adequate
    accessto counsel,legal telephonecalls, and visitation privileges consistentwith
    their classification.

    Response: The DHS interim responseto the DOJ OIG provided deta.iled
    information on ICE's new Detention Standardon Staff-Detainee Communication.
    The central goal of this new standardis to ensurethat ICE personnelmonitor
    detention conditions and to promptly addressconcernsthat arise. The standards
    also include specific timeframesduring which officers must respond to certain
    enumerateddetaineerequests.

     As noted above, the DO! OIG concluded that Recommendations18 and 19 were
    "closed" after determining that the new detentionstandard fully addressedthe
    issuesraised by theserecommendations. A copy of the detentionstandardis
    attached.

    DHS is committed to ensuringthat DRO closely monitor the implementation of
    the directives in the detentionstandards,including the new standard on staff-
    detaineecommunications. We will pay careful attention to inspections and audits
    performed by those inside and outsidethe organization. Detaineesin DHS-
    controlled facilities are required to have accessto counsel, telephone calls, and
    visitation privileges. The Officer for Civi~ Rights and Civil Liberties will continue
    to work closely with DRO to strengthenfacilities inspectionsand ensurethat
    accessto counselis fully afforded.

                                      RemovalIssues

    RECOMMENDATION 20. How long the INS legally could hold September11
    detaineesafter they have received final orders of removal or voluntary departure
    orders in order to conduct FBI clearancecheckswas the subject of differing
    opinions within the INS and the Department. A February 2003 opinion by the
                                          8



.
          Department's Office of Legal Counselconcluded,however, that the INS could
          hold a detaineeQeyondthe normal removal time for this purpose. We recommend
          that the Department carefully examinethe limits on its legal authority to detain
          theseindividuals.

          Response: Weare committed to strengtheningour efforts to conduct post-order
          custody reviews. We will ensurethat post-order custodyreviews are conducted
          consistently and effectively, and, as describedbelow, will issue new guidanceto
          ICE field offices to guaranteethat thesereviews are completed. With regard to
          the legal opinion issued by the DOl's Office of Legal Counsel, it is critical to
          rememberthe role that office plays in the federal government. The Office of
          Legal Counsel's role is much broaderthan providing legal advice within its own
          agency; in certmn important circumstances,the Office is responsible for providing
          legal advice to the entire Executive Branch. Given this context, the DOJ Office
          of Legal Counsel's opinion will continue to govern DHS's policies and practices
          in this area.

           RECOMMENDATION 21: The Departmentof Homeland Security needsto
           ensure that its field offices conSistentlyconduct Post-Order Custody Reviews
           (POCRs) for all detaineeswho remain in its custody after the 90-day removal
           period.

           Response: We agreewith this recommendatioDco     and have taken steps to ensure
           effective coordination and communication with regard to post-order custody
           reviews (POCRs). Under the new ICE field structure, ICE Headquarters
           managementofficials have control of field elementsthat are charged with
           completing POCRs, and have establisheda clear chain-of-command. This new
           chain of command, coupled with improved coordination betweenDO! and DHS,
           and CUlTentongoing training for our field personnel, should ensure that POCRs
           are completed in a timely mannerin the future. ICE is confident these actions will
           result in greater accountability and responsiveness.

           Under the current ICE practice for detained aliens with either a final order of
           removal or voluntary departure,where there is FBI interest, ICE promptly notifies
           FBI of the pending removal action and asks the FBI to provide within a specific
           timeframe information indicating why the alien should remain in custody. This
           request
           is       is typically
              in a position      made
                            to move   atalien.
                                    the the point that ICE has' a travel document in hand and
                                                             ~



           hi summary, DHS will take strong action to carefully monitor each individual
           sitUation in which an alien remains in custody after the 90 day removal period.

    IV. CONCLUSION

    Over the past several months, the Departmentof Homeland Security has undertaken a
    close review of policies, regulations and procedures.The DOl OIG report has served as a

                                                9



.
helpful tool in this process.The activities related to arrest, detention, litigation, and
removal for which we are responsiblewill be carried out under a streamlinedprocess,
should an event of national impact occur in the future. By implementing the policy
changesoutlined above, DHS intends to move forward in ways that support national
security while honoring the rule of law.




                                              10
